<html>
<title> - BOLSTERING DEMOCRACY IN GEORGIA</title>
<body><pre>[Senate Hearing 117-10]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-10

                       BOLSTERING DEMOCRACY IN GEORGIA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EUROPE AND
                     REGIONAL SECURITY COOPERATION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 23, 2021

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                  Available via http://www.govinfo.gov
                  
                              __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-406 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                 
                  


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        




                   SUBCOMMITTEE ON EUROPE AND        
                 REGIONAL SECURITY COOPERATION        

            JEANNE SHAHEEN, New Hampshire, Chairman        
BENJAMIN L. CARDIN, Maryland         RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
CHRIS VAN HOLLEN, Maryland           MITT ROMNEY, Utah
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
                                     TODD YOUNG, Indiana

                              (ii)        

  
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     1
    Prepared Statement...........................................     2

Johnson, Hon. Ron, U.S. Senator From Wisconsin...................     4
    Prepared Statement...........................................     4

Risch, Hon. James E., U.S. Senator From Idaho....................    13

Kent, George, of Washington, DC, a Career Member of the Senior 
  Foreign Service, Deputy Assistant Secretary, Bureau of European 
  and Eurasian Affairs...........................................     5
    Prepared Statement...........................................     7

McDonald, Kara, of Washington, DC, a Career Member of the Senior 
  Foreign Service, Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights and Labor..............................    10
    Prepared Statement...........................................    11

                                 (iii)

  
 
                 BOLSTERING DEMOCRACY IN GEORGIA

                              ----------                              


         <greek-l>INSERT DATE HERE deg.TUESDAY, MARCH 23, 2021

                           U.S. Senate,    
        Subcommittee on Europe and Regional
                              Security Cooperation,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-106 and via videoconference, Hon. Jeanne Shaheen, 
chairman of the subcommittee, presiding.
    Present: Senators Shaheen [presiding], Murphy, Van Hollen, 
Risch, and Johnson.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone.
    We are going to go ahead and begin because we are in the 
middle of votes, which I think many of you know. And we have 
voted, I think on the first vote. I assume the other committee 
members have. And so we will recess when the second vote is 
called, go vote, and then come back.
    So this is a hearing of the Senate Foreign Relations 
Committee on Europe and Regional Security. It will now come to 
order. I am delighted to have Ranking Member Johnson here with 
me and we are very excited to hear what our witnesses have to 
say about the crisis in Georgia. Thank you both for being here.
    Given the nature of the hearing where some of us will be in 
person and some of us will be virtual, we are going to do 
questions by seniority and work to accommodate all the members, 
whether they be virtual or in person. The purpose of today's 
hearing is to engage with our witnesses about the current 
situation in Georgia to better understand how the United States 
can support a democratic resolution to the current political 
standoff. Georgia has come a long way in a relatively short 
period of time, as I think we would all agree. It has worked to 
establish and strengthen its democratic institutions. The path 
has not always been straight, but the overall trajectory has 
been positive.
    I had the honor of traveling with the Ranking Member of the 
full Senate Foreign Relations Committee, Senator Risch, to 
Georgia in 2012 to observe their elections when Georgia Dream 
took over as the ruling party. The election was notable for its 
peaceful transfer of power, which is critical to any democracy. 
And since that 2012 election, Georgia's democracy has been 
tested, but it has generally been strengthened and deepened.
    Georgia has also demonstrated a desire to join the European 
community. It has affirmed its desire to become a member of 
NATO, something that I have supported and continue to support. 
And as co-chair of the Senate NATO Observer Group, this is 
exactly the path that we want for new democracies and there is 
bipartisan support in the Senate for this route for Georgia, 
but unfortunately the situation facing Georgia today is a 
critical one, the resolution of which could either recommit the 
country to democracy or row the efforts of many years.
    Now while the organization for security and cooperation in 
Europe has reported that the 2020 elections were, and I quote, 
``competitive and administered efficiently despite challenges 
posed by the COVID-19 pandemic,'' it also emphasized the need 
for election reform, which I urge the Georgian Government to 
undertake with expediency. It is not enough to hold an election 
that meets the threshold of legitimacy. Democratic elections 
must have robust mechanisms in place to resolve disagreements, 
mechanisms that are seen as fair by all participants in the 
democratic process.
    The United States has long been an ally of a free and 
democratic Georgia and this remains the case today, but that 
important relationship is dependent on Georgia's commitment to 
strengthening the institutions of democracy. And just to be 
clear, Georgia's commitment to democracy must be demonstrated 
through the actions of all Georgians, whether they are in the 
Government or the opposition. So it is imperative that the 
Government takes steps to ensure an independent judiciary and 
to work with all opposition parties to find a negotiated 
resolution to this crisis.
    We know that a truly democratic country must be responsive 
to the will of the people, but a successful democracy also 
needs to function and address the needs of its citizens. And 
right now, given the current impasse in Georgia, the only party 
who is winning is Russia. Russia thrives from disorder and 
chaos and every day that members of opposition sit in jail is a 
victory for Russia. Every day that Georgian Parliament seats 
are empty is a disservice to the people of Georgia and a 
victory for Russia.
    That is why I am surprised and disappointed that all 
parties have allowed the current crisis to last so long. And 
today I will call on both sides, all sides actually, as we 
think about the two major parties and the other parties who are 
not in power, to put aside short-term political interests to 
instead look to the strengthening and perseverance of Georgian 
democracy.
    I hope this hearing will provide better clarity on how the 
United States can assist our ally, Georgia, to fulfill its 
democratic goals and solidify the representation of the values 
its people hold. I look forward to the testimony of our 
distinguished witnesses and to hearing your perspective on this 
important topic.
    Now I would like to turn to Ranking Member Johnson for any 
opening remarks.
    [The prepared statement of Senator Shaheen follows:]

                 Prepared Statement of Senator Shaheen

    Good afternoon, everyone. This hearing of the Senate Foreign 
Relations Subcommittee on Europe and Regional Security will come to 
order. Thank you all for being here today, and I would like to extend 
particular thanks to our witnesses, who we will hear from shortly. I 
would also like to thank Ranking Member Johnson for agreeing to have 
our first subcommittee hearing to address this important topic. Given 
the nature of this hearing, with some of our members present and some 
virtual, we will do questions by seniority and will work to accommodate 
all members whether they be virtual or in person.
    The purpose of today's hearing is to engage with our witnesses 
about the situation in Georgia and to better understand how the U.S. 
can support a democratic resolution to the current political standoff. 
Georgia has come a long way in a relatively short period of time. It 
has worked to establish and strengthen its democratic institutions. The 
path has not always been straight, but the overall trajectory has been 
positive.
                 risch/shaheen election monitoring trip
    I had the honor of traveling to Georgia in 2012 with Senator Risch 
to witness Georgian democracy in action. We were there as part of a 
delegation of election monitors to oversee Georgia's parliamentary 
elections. That election was notable for the peaceful transfer of 
power, a necessity for any democracy. Since that 2012 election 
Georgia's democracy has been tested but it has also deepened and 
strengthened.
                     georgia and eu/nato membership
    Georgia has also demonstrated a desire to join the European 
Community. It has also affirmed its desire to become a member of NATO, 
which I continue to support. As a co-chair of the Senate NATO Observer 
Group, this is precisely the path we want for new democracies and there 
is bipartisan support in the Senate for this. But the situation facing 
Georgia today is a crucial one, the resolution of which could either 
re-commit the country to democracy or erode the efforts of many years.
                         2020 election results
    While the Organization for Security and Cooperation in Europe 
(OSCE) has reported that the 2020 elections were ``competitive and 
administered efficiently despite challenges posed by the COVID-19 
pandemic,'' it also emphasized the need for election reform, which I 
urge the Georgian Government to undertake with expediency. It is not 
enough to hold an election that meets the threshold of legitimacy. 
Democratic elections must have robust mechanisms in place to resolve 
disagreements--mechanisms that are seen as fair by all participants in 
the democratic process.
                           u.s. expectations
    The U.S. has long been a friend and ally of a free and democratic 
Georgia--and this remains the case today. But that important 
relationship is dependent on Georgia's commitment to strengthening the 
institutions of democracy. But to be clear, Georgia's commitment to 
democracy must be demonstrated through the actions of all Georgians, 
whether they be in the Government or opposition. So it is imperative 
that the Government take immediate steps to ensure an independent 
judiciary and work with all opposition parties to find a negotiated 
resolution to this crisis. We know that a truly democratic country must 
be responsive to the will of the people, but a successful democracy 
also needs to function and address the needs of its citizens. Amid a 
pandemic and a struggling economy, we cannot lose sight of the fact 
that the Georgian people are suffering--the failure of the country's 
politicians to decide on a way forward isn't helping.
                                 russia
    At present, only one party is winning: Russia. Russia thrives from 
disorder and chaos. Every day that members of the opposition sit in 
jail is a victory for Russia. Every day that Georgian parliament seats 
are empty is a disservice to the people of Georgia. This is why I am 
surprised and disappointed that all parties have allowed the current 
crisis to last so long, and I call on all sides to put aside short-term 
political interests and instead look to the strengthening and 
perseverance of Georgian democracy.
                        expectations of hearing
    It is my intention that this hearing will provide better clarity on 
how the United States can assist our important ally, Georgia, to 
fulfill its democratic goals and solidify the representation of the 
values its people hold. I look forward to the testimony of our 
distinguished witnesses and to hearing their perspectives on this 
important topic.
    I now turn to Ranking Member Johnson for his opening remarks.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Well, thank you, Madam Chair.
    I think I will save all of us time by asking to have my 
opening remarks entered into the record and just associating 
myself with your comments. I really could not agree more and I 
am really pleased that you decided to hold this as your first 
hearing as Chair.
    Now, unfortunately, we have traveled the region. We have 
seen that I always call the belt of democracies around Russia 
trying to break free from the legacy of corruption and just 
trying to escape I will call them the charms of Russia. And it 
is so important that all parties, the opposition, the governing 
party, come together and realize that it is in their best 
interest, all of their interest, for Georgia to settle these 
disputes and get back to the hard work of governing, the hard 
work of democracy. Georgia is just an example of so many of 
those countries in the area and this is a perfect first hearing 
under your Chairwomanship.
    So I also want to thank the witnesses for your service to 
this country and for testifying before us today. So with that, 
I will turn it back over to you.
    [The prepared statement of Senator Johnson follows:]

                 Prepared Statement of Senator Johnson

    Georgia is a valued, dependable, and strategically significant 
friend and partner of the United States. These strong relations are 
highlighted in the 2009 U.S.-Georgia Charter on Strategic Partnership, 
which outlines the four pillars of our relationship: democracy; defense 
and security; economics and trade, and cultural exchanges. Over the 
last two decades, Georgia has contributed to the wars in Afghanistan 
and Iraq and remains the fourth largest overall and largest per capita 
troop contributor to the Resolute Support Mission in Afghanistan today. 
Thirty-five Georgian soldiers have made the ultimate sacrifice fighting 
alongside the United States, and we should never forget this faithful 
support. Since regaining independence from the Soviet Union in the 
early 90's, Georgia has set an example for the region with progress in 
fighting corruption and developing modern state institutions. It has 
made Euro-Atlantic integration a top national priority despite Russian 
efforts to undermine progress. The United States supports Georgia's EU 
and NATO ambitions and condemns Russia's continued illegal occupation 
of the Georgian regions of South Ossetia and Abkhazia.
    This close relationship colors our hearing today. The United States 
knows all too well that democracy can be messy, especially so in 
relatively new democracies. No system is perfect, but the United States 
and Georgia share the goal of strengthening our democracies and 
improving public confidence in our elections. Georgia's constitutional 
reforms leading up to the 2020 elections were considered a commendable 
step towards strengthening its democratic institutions; many, but not 
all, of the Organization for Security and Cooperation in Europe's 
(OSCE) recommendations were implemented.
    The October 31, 2020 elections, while complicated by the ongoing 
pandemic and not without issues, were largely deemed a success, with 
international observers calling them competitive and respectful of 
fundamental freedoms. The aftermath, however, has proven more 
problematic. Unsatisfied with aspects of the election, the largest 
opposition bloc, led by the United National Movement (UNM) party, chose 
not to accept the results and declined to take their seats in 
parliament. The situation was exacerbated when Georgian authorities 
arrested UNM leader Nika Melia in February in connection with charges 
from 2019 that have been widely criticized as politically motivated. 
Melia's recent arrest, coupled with the political impasse in the 
aftermath of the October 2020 elections, have caught the world's 
attention. The U.S. and EU can provide a forum for dialogue, but we 
cannot solve these issues for Georgia. While the Government and 
opposition may disagree for the moment on how to resolve their 
differences, it is crucial for Georgia's future progress that they find 
a solution.
    I would like to thank both of our witnesses for being here today, 
and I look forward to hearing your testimony.

    Senator Shaheen. Well, thank you very much, Senator 
Johnson, for those very nice comments and also for pointing out 
something that I think it is important for Georgians and for 
everyone who is looking at our view about what is happening in 
Eastern Europe to know, and that is that there is very strong 
bipartisan agreement for how to move forward, so I think that 
is an important message from today's hearing.
    We will now hear from our witnesses and I am going to 
introduce both of you and then we will ask you to go in the 
order in which I introduce you.
    First, we will start with the Honorable George Kent. Mr. 
Kent has served as the Deputy Assistant Secretary of State for 
European and Eurasian Affairs since September of 2018. In this 
capacity, he oversees policy toward Ukraine, Moldova, Belarus, 
Armenia, Azerbaijan, and of course, most important for this 
hearing, Georgia. Previously, he was Deputy Chief Admission in 
Kiev, Ukraine, and he also served as the Senior Anti-corruption 
Coordinator in the State Department's European Bureau.
    Since joining the Foreign Service in 1992, he has served in 
numerous countries including Poland, Uzbekistan, and Thailand. 
Given this background, he clearly has extensive knowledge about 
Europe and we look forward to his testimony today.
    Also, appearing with Mr. Kent is Deputy Assistant Secretary 
Kara McDonald. Ms. McDonald has served as the Deputy Assistant 
Secretary of State for Democracy, Human Rights, and Labor since 
July of 2020. In this capacity, she oversees the Bureau's work 
on Europe, South and Central Asia, and the Multilateral and 
Global Affairs Teams. Prior to her current position, she served 
as U.S. Consul General Strasberg and Deputy Permanent 
Representative to the Council of Europe.
    From 2015 to 2017, she was Director of Policy Planning and 
Coordination in the International Narcotics and Law Enforcement 
Affairs Bureau. And she previously served as Deputy Chief 
Admission in Moldova. She has also worked around the world 
including Haiti and Romania.
    Ms. McDonald, we are also excited to hear from you about 
democracy in Georgia.
    So, Mr. Kent, would you begin?

STATEMENT OF GEORGE KENT, OF WASHINGTON, DC, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, DEPUTY ASSISTANT SECRETARY, BUREAU 
                OF EUROPEAN AND EURASIAN AFFAIRS

    Mr. Kent. Thank you very much, Chairwoman Shaheen, Ranking 
Member Johnson, and distinguished members of the subcommittee. 
Thank you for inviting us here today to discuss our policy 
goals regarding Georgia, our efforts to bolster democracy and 
counter Russia's destabilizing actions in Georgia, and the 
challenges posed by recent developments.
    I would like to start, Chairwoman, by thanking you for your 
sustained interest and involvement in Georgia's success and 
your role, along with Senator Risch, as election monitors in 
that landmark election in 2012 that you described with a 
peaceful transfer of power. I would like to associate myself as 
well with your opening statement which I thought was a powerful 
reiteration not just of bipartisan support, but I think of the 
views held by many here in Washington. I would like to thank 
the Committee and others in Congress for the generous support 
for U.S. policy and programming towards Georgia.
    The United States has helped Georgia make real strides over 
the years in advancing democratic reforms and economic 
development, as well as in defending itself against Russian 
aggression. Georgia recovered after the 2000 war with Russia 
and with our support, has built resilience to continued 
aggression. Russia uses its occupation of 20 percent of 
Georgia's territory, economic leverage, cyberattacks, and 
disinformation to sew division and distrust and to try to force 
Georgia to abandon its Euro-Atlantic aspirations.
    The United States uses diplomatic engagement, assistance, 
and strong public messaging to push back against malign actions 
and to enhance the prospects for positive change. We strongly 
condemn the ongoing Russian occupation of Abkhazia and South 
Ossetia, and we support Georgia's sovereignty and territorial 
integrity within its internationally recognized borders. 
Georgia remains the United States' key strategic partner in the 
South Caucuses and an important partner in the wider Black Sea 
Region. Georgia has been a steadfast partner of NATO, and we 
continue to support Georgia's choice to pursue NATO membership 
and closer ties within the Euro-Atlantic community.
    Efforts to bolster Georgia's western orientation are 
particularly critical in the aftermath of last year's intensive 
fighting in Nagorno-Karabakh. The deployment of Russian troops 
as peacekeepers to Nagorno-Karabakh now means that Russia has 
``boots on the ground'' in all three South Caucasus countries. 
Russia, Turkey, and Iran seek to further increase their 
influence in the region. Georgia fears being hemmed in by or 
cut out of competing infrastructure in other development 
projects as a result. We are exploring ways the United States 
can support greater cooperation among the South Caucuses 
countries while preserving their sovereignty and freedom of 
action.
    While Georgia faces such challenges from outside actors, it 
also faces serious internal challenges as you have described. 
With U.S. assistance to bolster its efforts, Georgia has made 
significant democratic gains since independence. However, we 
agree that Georgia still has real work to do in strengthening 
institutions and democratic norms. Georgia's current political 
crisis is concerning both in terms of democratic development 
and the potential for increased vulnerability to Russian 
maligned influence.
    Chairwoman, as you already quoted, the Organization for 
Security and Cooperation in Europe assessed the first round of 
parliamentary elections as competitive with fundamental 
freedoms respected, but they also noticed that the blurring of 
line between ruling party and state reduced public confidence 
in some aspects of the process. Unfortunately, most of the 
opposition boycotted the new Parliament, even though polls 
indicate a majority of Georgians who voted for the opposition 
want the elected MPs to take up their seats, as you also 
pointed out.
    The February 23rd arrest of opposition leader Melia 
intensified the crisis. Melia's arrest represented a step 
backward for Georgian democracy. Both the ruling Georgian Dream 
party and the opposition have failed to act on opportunities to 
deescalate. This is a pivotal moment in Georgia's democratic 
development. As Georgia's strategy partner and friend, the 
United States must speak frankly when Georgia's leaders, 
especially in the ruling party, seem to be drifting from the 
path chosen by the people of Georgia.
    Integration into the west is a challenging road that 
requires a clear and unflinching commitment to shared values, 
democratic norms, and institutions with integrity that are 
foundational to a functioning democracy. Our Ambassador, Kelly 
Degnan, has worked tirelessly with EU counterparts over the 
past year to help Georgians move forward. Georgia's political 
leaders must summon the political will to resolve this crisis. 
The responsibility for success or failure rests squarely with 
them. Failure by the ruling party and opposition to reach 
agreement would imperil Georgia's Euro-Atlantic aspirations. 
The Administration looks forward to working with you in 
Congress and our European allies and partners to help identify 
further opportunities to support Georgia's democratic 
development and success. I look forward to answering your 
questions after my colleague has spoken.
    Thank you.
    [The prepared statement of Mr. Kent follows:]

                     Prepared Statement of Mr. Kent

    Chairwoman Shaheen, Ranking Member Johnson, distinguished members 
of the Subcommittee, thank you for inviting me today to discuss our 
policy goals regarding Georgia, our efforts to bolster democracy and 
counter Russia's destabilizing actions in Georgia, and the challenges 
posed by recent developments in Georgia and the South Caucasus region 
in general.
    I would like to start by thanking you, Chairwoman Shaheen, for your 
sustained interest and personal involvement in Georgia's success over 
the years, dating back at least to 2012, and your role as an election 
monitor in a landmark election that led to a peaceful transfer of power 
in Georgia. Bipartisan Congressional interest in and support for 
Georgia have been the reliable bedrock for the United States' policy 
and programming.
    I would also like to thank this Committee and others in Congress 
for their generous support for U.S. policy in Georgia. Our diplomatic 
engagement, policy advocacy, and assistance programs in Georgia have 
helped the country make real strides over the years in advancing the 
democratic reforms and economic development its people aspire to, as 
well as in defending itself against Russian aggression. Nine years 
after the 2003 Rose Revolution, Georgia modeled a peaceful transfer of 
power after the 2012 elections you observed, Chairwoman.
    Since Georgia's independence nearly 30 years ago, the United States 
has aimed to help Georgia succeed as a prosperous democracy able to 
defend itself and contribute to collective security. The billions in 
assistance the United States has provided since 1992 has made a huge 
difference in Georgia's transition from a newly independent, former 
Soviet republic to a free-market democracy eager to contribute to 
collective security in both the regional and global contexts. While 
there is much work to be done, much has been accomplished, often in 
close partnership with the United States.
    U.S. economic assistance fosters a rules-based business 
environment, supports the implementation of Western business and trade 
standards, and increases opportunities for U.S. businesses. These 
efforts are critical to increasing Georgia's ties to the West and 
decreasing its economic reliance on the Russian market. Georgia ranks 
seventh in the World Bank's 2020 ``Doing Business'' ratings and has 
effectively eradicated low-level corruption.
    Georgia recovered after the 2008 war with Russia and, with our 
support, has built resilience to continued aggression. Russia uses its 
occupation of 20 percent of Georgia's territory, economic leverage, 
cyber attacks, and disinformation to try to force Georgia to abandon 
its Euro-Atlantic aspirations and to sow division and distrust. 
Russia's attempts to control and exploit the Georgian regions of 
Abkhazia and South Ossetia through borderization, arbitrary detention 
of Georgian citizens, restrictions of movement, and other measures 
threaten European security. They also endanger the lives and culture of 
people living in these Georgian regions.
    The United States is using diplomatic engagement, assistance 
programs, and strong public messaging to push back against malign 
actions and enhance the prospects for positive change. We remain 
committed to supporting Georgia's sovereignty and territorial integrity 
within its internationally recognized borders.
    We strongly condemn the ongoing Russian occupation of Abkhazia and 
South Ossetia. The United States is an active participant in the Geneva 
International Discussions to address the consequences of the 2008 
conflict in Georgia. We continue to call on Russia to fulfill its 
obligation under the 2008 ceasefire agreement to withdraw its forces to 
pre-conflict positions, and also to reverse its recognition of Abkhazia 
and South Ossetia.
    On top of U.S. security assistance, U.S. programs work to enhance 
economic opportunities in communities close to the Administrative 
Boundary Lines (ABL) with Abkhazia and South Ossetia and promote 
confidence-building among people on both sides of the ABL, civil 
society groups, and the Georgian Government.
    These activities support the Georgian Government's peace plan, 
which aims to reduce the isolation of the people of the occupied 
territories and their dependence on Russia. More broadly, Georgia's 
Government has taken important steps to integrate marginalized 
populations into Georgian society, including ethnic and religious 
minorities.
    Outside of its borders, Georgia remains the United States' key 
strategic partner in the South Caucasus and an important partner in the 
Black Sea region. Georgia has been a steadfast partner of NATO, 
contributing more to the NATO mission in Afghanistan than a number of 
alliance members. Georgia has deployed approximately 850 troops to the 
Resolute Support Mission (RSM) in Afghanistan, fights without caveats, 
and has seen 32 soldiers killed in action, and more than 290 wounded.
    In support of the pledge made at the 2008 NATO Summit in Bucharest, 
and reiterated at the 2018 Brussels summit, we continue to support 
Georgia's choice to pursue NATO membership and closer ties with the 
Euro-Atlantic community. U.S. security assistance to Georgia reinforces 
these goals and promotes U.S. national security priorities by building 
Georgia's capabilities to deter Russia, increasing Georgia's 
interoperability with NATO, and enabling Georgian troops to partner 
with us in coalition operations.
    In recognition of Georgia's significant contributions to 
international security, Georgia is one of NATO's first Enhanced 
Opportunity Partners and holds a regular dialogue with NATO on the 
reforms needed to meet NATO's performance-based standards, as well as 
the values undergirding the alliance. At the April 2019 NATO Foreign 
Ministerial, Allies agreed to a Black Sea Package that also focused on 
increased cooperation with Georgia and Ukraine. In 2020, NATO approved 
an updated package of measures to further help build Georgia's defense 
capacity and its interoperability with NATO. NATO Secretary General 
Stoltenberg hosted recently appointed Prime Minister Garibashvili March 
17 reviewing the relationship and the road ahead.
    Efforts to bolster Georgia's Western orientation are particularly 
critical in the aftermath of last year's intensive fighting in Nagorno-
Karabakh. The deployment of Russian troops as ``peacekeepers'' to 
Nagorno-Karabakh now means Russia has ``boots on the ground'' in all 
three South Caucasus countries. Turkish and Russian troops now jointly 
man a cease-fire monitoring center in Azerbaijan.
    The 3+3 regional platform proposed by Russia, Turkey, and Iran 
seeks to take advantage of this new dynamic to further increase 
Russian, Turkish, and Iranian influence in the region. Georgia fears 
being hemmed in by--or cut out of--competing infrastructure and other 
development projects as a result. We are currently exploring ways in 
which the United States can support greater cooperation among the South 
Caucasus countries while preserving their sovereignty and freedom of 
action.
    The United States welcomes Georgia's successes thus far and wants 
to see Georgia continue on its path to a more robust democracy, with 
governing institutions that demonstrate integrity, have the capacity to 
counter Russian and other malign influence, and will allow it to 
achieve the European and EuroAtlantic aspirations of its people.
    While Georgia faces challenges in the region from outside actors, 
it also faces serious challenges within its own institutions and body 
politic. Georgia has real work to do in strengthening its democracy, 
both to meet the demands of its citizens and to stand as a proud 
counterexample to the Russian model of governance. Georgia's commitment 
to democracy and the rule of law is a fundamental element of our 
strategic relationship, as well as the precondition for the country's 
further progress.
    Over the years, U.S. programs have worked with Georgian Government 
partners as well as civil society to promote justice sector reform, 
judicial independence, and accountability. U.S. assistance also helps 
Georgia improve electoral processes, level the electoral playing field, 
and enable citizens to demand better representation. Support for civil 
society is critical to ensuring citizens are informed, can advocate 
effectively for positive change, and can maintain momentum on reforms. 
U.S. assistance in the media space similarly improves access to 
independent and reliable information, offers a diversity of voices, and 
helps counter Russian disinformation.
    Another focus area for U.S. programs is better governance, to 
include support for government civil service reforms, local government 
decentralization, and transparency. Improved access to quality public 
services is one of the most convincing ways to show individual 
Georgians that democracy is working for them.
    With U.S. assistance to bolster its efforts, Georgia has made 
significant democratic gains since independence, since the 2003 Rose 
Revolution, and since the 2012 election cycle brought the current 
Georgia Dream ruling party to power. However, the aspirations of the 
Georgian people require continuous efforts to move forward in 
strengthening institutional integrity and embedding democratic, 
EuroAtlantic norms in the political rules of the game.
    Georgia's current political crisis is thus concerning in terms of 
the country's democratic development and the potential for increased 
vulnerability to Russian malign influence. While the current political 
impasse began after competitive but procedurally imperfect 
parliamentary elections in 2020, the roots of the crisis preceded the 
elections.
    The Organization for Security and Cooperation in Europe (OSCE) 
assessed the first round of parliamentary elections as ``competitive, 
with fundamental freedoms respected.'' At the same time, the OSCE noted 
``the blurring of the line between the ruling party and the state 
reduced public confidence in some aspects of the process.'' 
Unfortunately, most of the opposition members boycotted the new 
parliament, even though polls, including those conducted by the 
National Democratic Institute and the International Republican 
Institute, indicate a majority of Georgians who voted for the 
opposition want the elected MPs to take their seats and represent their 
constituents.
    The February 23 arrest of opposition leader Nika Melia--for failure 
to pay bail associated with his June 2019 arrest for allegedly 
organizing protest violence--intensified the crisis. Both the ruling 
Georgian Dream party and the opposition have failed to act on 
opportunities to deescalate. Former Prime Minister Giorgi Gakharia 
resigned February 18 in protest over the Government's plan to arrest 
Melia. Melia's arrest presented a perilous moment for Georgia's Euro-
Atlantic aspirations and a step backward for Georgian democracy.
    My colleague Kara McDonald will have more to say on this issue, but 
we assess that the current impasse in Tbilisi stems from decades-long 
realities in the electoral and judicial systems, including a lack of 
trust in the judiciary to provide due process. The impasse demonstrates 
the need for more reforms to strengthen the rule of law, judicial 
independence, adherence to democratic norms, and electoral processes.
    We are urging Georgian parties to make difficult compromises to end 
the political crisis, and our Ambassador Kelly Degnan has worked 
tirelessly over the past year in this regard. We are working closely 
with our EU partners to help the sides find a way forward.
    Progress will guide Georgia onto a path toward consolidation of 
democratic institutions, processes, and norms, integral to its 
aspiration to join the Euro-Atlantic community. Failure by the ruling 
party and opposition to reach agreement and address the causes of the 
standoff, in contrast, would imperil those aspirations.
    The Administration looks forward to working with Congress and 
European allies to help identify further opportunities to support 
Georgia's democratic development, including reforms to foster judicial 
independence and a level electoral playing field, as well as anti-
corruption and pro-business reforms.
    We will continue to support the Georgian people's choice to pursue 
closer ties with the EU and NATO and, as Congress has done, voice 
strong U.S. support for Georgia's sovereignty and territorial integrity 
within its internationally recognized borders.
    I look forward to answering your questions. Thank you.

    Senator Shaheen. Thank you. Ms. McDonald.

STATEMENT OF KARA MCDONALD, OF WASHINGTON, DC, A CAREER MEMBER 
  OF THE SENIOR FOREIGN SERVICE, DEPUTY ASSISTANT SECRETARY, 
          BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR

    Ms. McDonald. Chairwoman Shaheen, Ranking Member Risch, 
Ranking Member Johnson, distinguished members of the 
Subcommittee, thank you for the opportunity to speak about 
bolstering democracy in Georgia.
    Chairwoman Shaheen, I want to recognize as well your 
sustained personal leadership. Thank you both for your 
bipartisan leadership and general support. I too associate 
myself with your opening statement.
    President Biden has been clear about the central role our 
values will play in foreign policy. This agenda to strengthen 
democracy, counter backsliding, and protect human rights is our 
best means to support Georgia's stability, prosperity, and 
Euro-Atlantic aspirations. Georgia has been a regional leader 
in democratic development in the face of Russian pressure. The 
parliamentary elections of 2012 saw the first fully democratic 
transfer of power since the country's independence. The 
adoption of labor reforms last September and laws on anti-
discrimination and the rights of persons with disabilities are 
also positive advancements. And the constitutional and 
electoral reforms last summer paved the way for potentially 
more pluralistic and power sharing governance.
    A series of negative developments and trends, however, 
trouble us greatly and urgently call attention to the work that 
remains in protecting and advancing Georgia's democratic gains.
    Ruling party concentration of power in state institutions, 
a politicized judiciary, and pressure on civil society, these 
undermine Georgian's confidence in their own democracy. I will 
touch briefly on these democratic vulnerabilities in turn.
    The OSCE/ODIHR election observation mission, as has been 
noted, found that while last fall's parliamentary elections 
were competitive, they were flawed. Allegations of 
irregularities, voter pressure, and a blurring of the border 
between the ruling party and the state. The OSCE/ODIHR mission 
specifically highlighted concerns about ruling party dominance 
in election commissions and shortcomings in the electoral 
complaints process.
    Although parliament passed electoral reforms in 2020 based 
on some ODIHR recommendations, parliament did not adopt 
critical and longstanding ODIHR recommendations regarding the 
integrity of the electoral appeals process. The courts in turn 
did not serve as an effective check on election administration 
bodies. Credible domestic election monitors reported that the 
election administration and courts rejected most of their 
complaints.
    The people of Georgia must have confidence in the electoral 
process and their elected leaders. To that end, we are urging 
the Government to implement the OSCE's election reform 
recommendations and U.S. Government assistance supports that 
goal. Politicization of the judiciary and prosecutions widely 
considered politically motivated also contribute to democratic 
vulnerability and reduce Georgia's resilience to stress on its 
democratic institutions.
    Ruling party dominance of the judiciary includes the undue 
influence of powerful judges on other judges and use of the 
disciplinary, promotion, and appointment system to exert 
influence on judges. We urge judicial reform and our assistance 
supports the development of an independent, accountable, and 
people centered judicial system.
    Finally, I want to say a word about pressure on civil 
society and free media. These are essential elements of 
democracy. Georgia suffers from a significant deterioration in 
the ruling party's conduct toward respected civil society 
leaders and an increasingly polarized national media 
environment, disinformation, and misinformation, both domestic 
and foreign, fuel division among Georgian communities. The 
United States supports programming to strengthen independent 
and free media and counter disinformation through informed 
media campaigns, media literacy, and building Georgia's 
capacity to protect its own information space.
    The vulnerabilities I outlined play to Russia's interests 
and open the door for other influences harmful to Georgia's 
democratic path. Restoration of Georgia's role as a regional 
model of democratic development is becoming more and more 
urgent. We will work intensively to bolster its democratic 
institutions and processes. It is up to Georgia's leaders and 
political parties to restore Georgia's democratic reputation 
and earn the confidence of their constituents. The people of 
Georgia deserve no less.
    Thank you and I welcome your questions.
    [The prepared statement of Ms. McDonald follows:]

                   Prepared Statement of Ms. McDonald

    Chairwoman Shaheen, Ranking Member Johnson, distinguished members 
of the Subcommittee, thank you for the opportunity to speak about 
bolstering democracy in Georgia.
    Chairwoman Shaheen, I too want to recognize your sustained, 
personal leadership on this issue. Ranking Member Johnson, I had the 
privilege as Deputy Chief of Mission of hosting you in Chisinau, 
Moldova during your 2014 visit with the late Senator McCain. Thank you 
both for your bipartisan leadership in bolstering democracy in the 
region and in Georgia. We appreciate the subcommittee's engagement and 
welcome opportunities to work with you.
    President Biden has been clear about the central role our values 
will play in our foreign policy. This agenda to strengthen democracy, 
counter backsliding, and protect human rights is our best means to 
support Georgia's stability, prosperity, and Euro-Atlantic aspirations.
    Georgia has been a regional leader in democratic development and 
tackling corruption, in the face of Russian pressure and the occupation 
of a fifth of its territory. The parliamentary elections of 2012 saw 
the first fully democratic transfer of power since the country's 
independence. The adoption of sweeping labor reforms last September, 
and laws on anti-discrimination and the rights of persons with 
disabilities are positive advancements for human rights. And the 
constitutional and electoral reforms last summer paved the way for 
potentially more pluralistic and power-sharing governance.
    A series of negative developments and trends trouble us, however, 
and urgently call attention to the work that remains in protecting and 
advancing Georgia's democratic gains.
    Ruling party concentration of power in state institutions, judicial 
cases widely considered politically-motivated, and pressure on select 
media and respected civil society leaders--undermine confidence in 
Georgia's democracy, risk fueling corruption, and increase 
vulnerability to external influence. Georgians themselves must have 
confidence in their institutions and parties' adherence to democratic 
principles if Georgia's democracy is to succeed.
    I will touch briefly on these democratic vulnerabilities in turn 
and what the U.S. Government is doing about them.
    The OSCE/ODIHR election observation mission found that while last 
fall's parliamentary elections were competitive, there were flaws--
allegations of irregularities, voter pressure, a blurring of the border 
between the ruling party and the state, and a lack of effective legal 
redress for election complaints.
    While parliament passed amendments last year enhancing the 
competitiveness of elections, the overall environment leading up to 
last fall's elections was fraught, despite intensive U.S. Government 
and European Union engagement. Inappropriate use of force by police 
against protesters and journalists in June 2019 and insufficient 
accountability for this police conduct, arrests of opposition figures, 
marred 2018 presidential elections, and public distrust in the 
judiciary to provide due process contributed to the tension. Political 
polarization between Georgian Dream and opposition parties continued 
through the post-parliamentary election period, and escalated recently 
with the arrest and detention of United National Movement leader Nika 
Melia. The current political impasse thus needs to be seen in this 
broad context. The OSCE/ODIHR mission specifically highlighted concerns 
about ruling party dominance in election commissions and shortcomings 
in the electoral complaints and appeals process, both during the pre-
election and immediate post-election periods. Although parliament had 
passed electoral reforms in the summer of 2020 based on some ODIHR 
recommendations, parliament did not adopt critical and longstanding 
ODIHR recommendations regarding the integrity of the electoral 
complaints and appeals process.
    The courts in turn did not serve as an effective check over 
election administration bodies when reviewing appeals against decisions 
of election commissions following the first round of the elections. 
Credible domestic election monitors reported that the election 
administration and courts rejected most of their pre-and post-election 
complaints, undermining public confidence in the process.
    Citing violations leading up to and on October 31, opposition 
parties boycotted the runoff elections on November 21, leaving 17 of 
Georgia's parliamentary seats uncontested. Moreover, the majority of 
the eight opposition parties that won seats have refused to take their 
seats in the new parliament.
    The people of Georgia must have confidence in the electoral process 
and their elected leaders, and deserve a swift resolution of the 
impasse. To that end, the U.S. Government is engaged in intensive 
efforts behind-the-scenes, as my colleague described, to engage the 
Georgian Dream and opposition parties in a results-driven dialogue. We 
are also urging the Government to fully implement the OSCE's election 
reform recommendations, and our assistance, including USAID's work with 
Georgia's political parties, domestic nonpartisan monitoring groups, 
and the Central Electoral Commission, and DRL's support to citizen 
dialogue with the parties on electoral reforms, supports that goal.
    Politicization of the judiciary; detentions, investigations, and 
prosecutions widely considered to be politically motivated; and 
insufficient accountability for the Georgian police use of force 
against protesters and journalists in 2019, also contribute to 
democratic vulnerability and reduce Georgia's resilience to stress on 
its democratic institutions.
    We continue to urge judicial reform and provide technical 
assistance to the courts so that they may serve as a check on executive 
branch abuses and curb ruling party dominance of the judiciary. This 
includes the undue influence of powerful judges on other judges, and 
use of the disciplinary, promotion, and appointment system to exert 
influence on judges. Such dynamics also raise the risk of vulnerability 
to corruption. USAID assistance supports judicial reform, and the 
development of an independent, accountable, and people-centered justice 
system. That assistance also builds the capacity of the judicial corps 
and improves access to justice for underrepresented communities. 
Georgia's judiciary should be independent and protective of all 
Georgians, regardless of party.
    Finally, I want to say a word about pressure on civil society and 
select media, and access to information, all essential elements of 
democracy. Georgia suffers from a significant deterioration in the 
ruling party's conduct toward respected civil society leaders, and an 
increasingly polarized national media environment that undermines 
opportunities for compromise, power-sharing, and consensus.
    Disinformation and misinformation, both domestic and foreign, fuel 
division among Georgian communities. This is why the United States 
supports programming to strengthen independent and free media, and 
counter disinformation through informed media campaigns, media 
literacy, and building Georgia's capacity to protect its information 
space.
    The vulnerabilities I outlined play to Russia's interests and open 
the door for other influences harmful to the Georgian people's choice 
of a democratic path.
    Restoration of Georgia's role as a regional model of democratic 
development is becoming more and more urgent. We will work intensively 
with Georgia to bolster its democratic institutions and processes, 
their effectiveness and independence, and the ability of media and 
civil society to operate freely and contribute to democratic 
resilience. In the end, it is up to Georgia's leaders and political 
parties to restore Georgia's democratic reputation and earn the 
confidence of their constituents. The people of Georgia deserve no 
less.
    Thank you, and I welcome your questions.

    Senator Shaheen. Thank you very much, Ms. McDonald.
    Senator Risch, would you like to make some opening remarks 
before we start the questions?
    Senator Risch. Briefly, Madam Chairman.
    Senator Shaheen. Go ahead.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. First of all, I did not hear your opening 
remarks and I didn't see them. For the record, I want to 
associate myself with those remarks.
    Senator Shaheen. Go ahead. We're happy to share them.
    Senator Risch. Senator Shaheen and I have talked about this 
issue at length. There is no daylight between us, I do not 
believe, on the issue starting from the time we went there in 
2012 in the fall to observe the elections. Since Georgia's 
independence in 1991, there has been quite a bit of progress in 
building democracy and implementing market based economic 
reforms. They have done this despite Russia's illegal 
occupation of a fifth of its territory since 2008.
    Georgia has also been a reliable U.S. security partner with 
ambitions to join both EU and NATO. A lot of us on both sides 
have been a strong supporter of Georgia for many years. It is 
likely it has already been mentioned, Senator Shaheen and I 
traveled there in 2012. And I have to tell you that I was very 
impressed and really believe that the country was going to be 
off to a roaring start. We had the opportunity to go into the 
camps, the real camps of both sides the morning after the 
election, both the losing side and the winning side, and met 
with the heads of the parties, Mr. Saakashvili and Mr. 
Ivanishvili. It was--I have been in 36 elections myself. I have 
been in camps the morning after of both winners and losers of 
elections on all sides from President on down. I have to tell 
you that the feeling in both of those camps was exactly like an 
American election. The winners felt as winners. The losers felt 
as losers. We had a very candid conversation with them. They 
were making some brash statements at that time, which happens 
the morning after the election, particularly when you have been 
up all night.
    In any event, I was--after listening to the comments, I 
thought, no, I do not know about this. But then shortly after 
that, I became very optimistic because the two sides agreed to 
meet as we had urged them and suggested. And so we felt good as 
the thing took off. Then as time went on, we were a little 
disillusioned as there were more and more political 
prosecutions. And again, we urged as best as we could that that 
wasn't the way forward.
    In addition to that, and unfortunately in the past few 
years, we have watched the country suffer from democratic 
backsliding. And it is really unfortunate because the country 
deserves better. It is in a unique position to be able to pull 
itself away from its history with the USSR. And what is going 
on now, of course, is increasing oligarch influence over the 
judiciary media and much of political life. Responsibility for 
the current crisis facing Georgia, the culmination of several 
years of increased tensions and failed reforms is shared by all 
sides, I believe.
    The two main political parties and their leaders must 
realize their duty to their country and move past their 
disagreements. I will take just a very short period of time, to 
tell a story that when we met with Mr. Saakashvili, he was the 
first one we met with who had lost. And he was insistent that 
he was not going to assist in transition and what have you. And 
I asked him if he had ever heard of George Washington and he 
said, ``yes, he had''. Everybody has heard of George 
Washington. And I said, ``Well, he was our first President as 
you know.'' And I said, ``200 years from now with this election 
being the first open, fair, and free election, every child in 
Georgia will read about you as the first President to go 
through this election. How do you want them to remember you? 
Like George Washington or like someone who was a sore loser and 
thought more of themselves than the country?''
    He listened carefully, didn't he, Jeanne, to that speech? 
And again, it was just out of the chute. So, anyway, again, we 
felt good about that. I do want to emphasize that the party of 
government, Georgia Dream, bears a special responsibility for 
leading Georgia out of this crisis. This conflict only hurts 
the country and its people and opens the door for Russia. I 
know our Ambassador in Tbilisi, Kelly Degnan, and the embassy 
team have been working tirelessly to facilitate a negotiated 
solution between the two parties and I am very appreciative of 
their efforts. Although I understand there has been little 
slippage backwards, I urge them to continue and I would 
certainly urge Georgia Dream and the Government to negotiate in 
good faith and try to get through this.
    Georgia is at a critical moment. If it cannot make its 
democracy work now, I do not know when it can. It will lose its 
opportunity to join the Euro-Atlantic institutions. Georgia's 
political leaders must negotiate an end to this current crisis 
and agree to needed reforms to improve Georgia's future.
    And so, with that, thank you for allowing me to make an 
opening statement, Madam Chairman.
    Senator Shaheen. Thank you very much, Senator Risch.
    We will now have a round of questions. We have 7 minute 
rounds and as I said earlier, I think we will be interrupted at 
some point for another vote, but hopefully that will go fast.
    I want to begin with you, Mr. Kent, and I am not going to 
use your full title for either of you because it is long. So as 
you are looking at this current crisis, how can it be resolved? 
What needs to happen in order to get through the current 
impasse?
    Mr. Kent. Thank you, Senator and Senator Risch. I think we 
would all associate ourselves with your comments as well.
    I think what is needed to get through this impasse is for 
the party leaders to come back together and do what is 
necessary for Georgian democracy to move forward. The 
conversations over recent weeks that the U.S. and the EU have 
been facilitating, and now people are using the word mediating, 
have centered around the necessity of electoral reforms, of 
judicial reforms, of how the parliament will be conducted, 
particularly using European models where committee chairs are 
shared among parties. And then I think where it comes down to 
areas of disagreement is: what to do about several opposition 
leaders who are currently detained, as well as the way forward 
politically with elections. And this is so critically important 
for the future of Georgia, as you all have eloquently said. And 
we are there supporting, cajoling, advising, pushing, but the 
leaders of the parties have to reach agreement for the sake of 
the country.
    Senator Shaheen. And you mentioned the opposition leader, 
Melia's arrest. Did Georgia authorities need to arrest him and 
how helpful would it be to resolve his arrest to let him out in 
terms of getting the opposition party to come to the table, the 
UNM?
    Mr. Kent. Madam Chairwoman, the previous Prime Minister saw 
the peril in making the precipitous move to arrest the leader 
of the opposition, and that is why he resigned on principle. 
And I think many people hoped that would be a shock to the 
political culture. And unfortunately, his fears were realized 
the next week. Mr. Melia did break the terms of his previous 
release. He took off his electronic bracelet. And so I think 
this gets into this issue of the full embrace of democratic 
norms and the rule of law by all Georgian leaders. And so, this 
is why I think no one is blameless in this situation, but all 
Georgians should have a vest interest in finding a path forward 
as they did last year, and in the agreement March 8th which 
allowed elections to go forward on revised terms that all 
agreed. And that is basically agreeing on the rules of the game 
and sticking to them.
    Senator Shaheen. And Ms. McDonald, you pointed out that the 
OSCE made a number of recommendations for election reform. Can 
you go through what those recommendations are and to what 
extent they have been part of any medication discussions?
    Ms. McDonald. Sure. Thank you, Chairwoman Shaheen, for the 
question.
    So the OSCE/ODIHR report, as you noted, listed a number of 
serious shortcomings. They were focused around the allegations 
of voter pressure and voter intimidation. The second basket, if 
I could call it that, of issues was around the composition of 
the electoral commissions at the central, district, and 
precinct levels and a blurring of the lines between the state 
and ruling party roles in administration of elections. So, 
again, getting to this question of ruling party dominance in 
state institutions. And the third major basket, I would say, 
was around the electoral grievance process and legal remedy.
    So we saw from domestic monitors on the ground--there were 
about 3,000 that were deployed on during the election. They 
also listed a number of these shortcomings. And in that last 
basket, they noted that of 1,660 complaints that the vast 
majority of those were cast aside and never actually made it to 
the judicial consideration. So these are the areas in which 
ODIHR has really--which sets the gold standard--has really 
focused the reforms and the recommendations going forward.
    Senator Shaheen. So I had a chance last week to talk with--
actually, to Zoom with--several MPs from Georgia Dream. And one 
of the things they said to me was that they had--the members of 
parliament from Georgia Dream were supportive of the 
recommendations around election reform and that it was UNM and 
the opposition parties who were opposed. Is that your 
understanding, either you or Mr. Kent, of the current 
situation?
    Ms. McDonald. So the electoral reform process is, of 
course, part of the negotiations. And while we very much 
believe that it is the role of the Georgians to own that 
process, we also have urged that that be an inclusive process, 
that it be transparent, that it be facilitated, that it be--
that there be feedback and a feedback loop between constituents 
and their leaders on all sides. So that is, I think the nugget 
of what ODIHR and OSCE has said is missing.
    We, of course, urged the opposition parties to take up 
their seats. I think we have seen in polling what Georgians 
care about, right? It is jobs. It is salaries. It is 
unemployment. It is COVID, poverty. So to get to the business 
of governing and hashing out these electoral reforms.
    Senator Shaheen. From your answer, it sounds like you think 
there is not necessarily a full commitment on either side to do 
that. Is that an accurate assessment of my understanding of 
your answer?
    Ms. McDonald. I believe it is accurate to say that both 
parties need to come in good faith to the table to move forward 
rapidly and in an inclusive manner on the electoral reforms, 
yes.
    Senator Shaheen. And Mr. Kent, what more can we do, can 
Ambassador Degnan do, can the United States do, can we here as 
part of this hearing do to encourage Georgians on both sides to 
come to the table? And I think Senator Risch put it very well 
when he said that the ruling party has a special responsibility 
to help get people back to the table to come to an agreement.
    Mr. Kent. I think you are holding this hearing today and 
your opening statements show the right messaging, and so I 
think that is very much value-added. Georgians understand how 
critically important friends here in this town, bipartisan, in 
Congress, in administrations under different presidents, have 
been to Georgia's success. And so to hear long-time friends of 
Georgia give that very direct message, as friends, is 
critically important. I realize COVID has prevented all of us 
from traveling over the past year. We are getting to the point 
where both people in Washington and in our embassies are 
starting to be vaccinated, and perhaps by the time we get to 
the Memorial Day recess it will be possible for travel again. 
And certainly, as you noted, some Georgians have started 
traveling here as of last week.
    So I think the clear, consistent messaging, making clear 
that while we support a successful Georgia, we also expect 
Georgia's leaders to do what their country needs them to do.
    Senator Shaheen. Well, thank you. Let us hope the current 
impasse is resolved before Memorial Day.
    Senator Johnson.
    Senator Johnson. Thank you, Madam Chair.
    Senator Risch has guaranteed me he just wants to ask a 
really short question, like a normal human being short 
question, right?
    Senator Risch. I apologize, but look. This is the question 
I have. The EU, as you know, has recently implemented 
conditionality on some of its financial assistance to Georgia. 
I am wondering if we ought to be looking at conditionality on 
our military or financial assistance to Georgia. If you do not 
feel--I know this is a policy question and it goes up the chain 
pretty high. If you do not feel comfortable about giving me 
your thoughts on that, no problem, but I am thinking about 
that.
    Mr. Kent. Well, sir, I know you and your colleagues last 
year put some limited conditionality on part of the aid to 
Georgia. And we certainly explained that to our Georgian 
friends that this was friends of Georgia wanting Georgians to 
succeed. And the--particularly the appropriators have been 
extremely generous in the assistance with the hard earmarks to 
Georgia over the years.
    I think it is--the issue of conditionality is something 
that we have looked at in other circumstances as well. Your 
colleagues have put that on Ukraine's security assistance, for 
instance. So I think it is something to consider, both the 
intent of what the appropriations are meant for, as well as the 
conditionality, but I think it remains a shared commitment of 
those in Congress, both houses, both parties, as well as in the 
Administration, to see Georgia succeed and take the steps that 
Georgia needs to succeed.
    Senator Risch. I appreciate that and I guess that is why I 
am thinking about it since the last ones we put on do not seem 
to have moved the needle very much, and I think next time it 
may be a little more stringent.
    Ms. McDonald, do you have thoughts in that regard?
    Ms. McDonald. Yes. Thank you for asking. I think what I 
would say about this is that we are constantly assessing how 
best to make our assistance most effective. And in terms of the 
reforms that we have talked about, we cannot want it more than 
they do. They have to commit to these. And so I do think that 
while we are focused on dialogue, we are focused on resolving 
the impasse and helping support the Georgians as they have this 
discussion, we have to absolutely be considering all approaches 
and constantly looking at what approaches and tools might be 
helpful.
    Senator Risch. Thank you very much both of you for your 
thoughts. I appreciate it.
    Senator Shaheen. Senator Johnson, since they have called 
the vote, shall we go vote and come back?
    Senator Johnson. Sure. That makes sense.
    Senator Shaheen. So we will officially recess.

    [Whereupon, at 3:02 p.m., the hearing was recessed.]

    Senator Shaheen. The Subcommittee on European Affairs of 
the Senate Foreign Relations Committee will come back to order 
and we will go to Senator Johnson, the Ranking Member, for his 
questions.
    Senator Johnson. Thank you, Madam Chair.
    In preparing for this hearing and taking a look at the 
situation in Georgia, to me it is pretty obvious that their 
main problem is the problem that has been around since the 
Russian invasion--and that is the big problem that has faced 
them, as well as how it really prevents them from proceeding 
into NATO integration and greater European integration. But 
then underlying--then what is preventing that is, again, the 
political prosecutions and the election. So I guess I would 
like to drill down a little bit on the election issues.
    I will say I mentioned this to Senator Shaheen earlier. 
There are some eerie similarities when you take a look at this. 
Democracy is hard. There is no election that is perfect. But 
Ms. McDonald, can you talk a little bit about one of the 
things--you talked about three main areas, voter oppression and 
intimidation. Can you just describe what you are talking about 
there, how that manifests itself?
    Ms. McDonald. Yeah. Certainly. Thank you for the question, 
Ranking Member Johnson.
    So voter oppression and intimidation is perhaps the hardest 
to capture in an electoral grievance process because this is 
the informal oppression process, the intimidation process that 
is usually informal. And so the allegations, the serious 
allegations, that ODIHR and OSCE referred to in this area of 
shortcomings is I think one of the more difficult to try to 
quantify or to capture within polling and within the electoral 
grievance process.
    Senator Johnson. So did that--you just mentioned the word. 
So did that lead into the second of the third problem?
    Ms. McDonald. Yes.
    Senator Johnson. The three problems is there just was not a 
perceived proper adjudication of these. So were these like 
filed affidavits or something similar to that of voter 
intimidation and voter oppression and then they were never 
looked at, just basically ignored?
    Ms. McDonald. Yes. So traditionally how this works is at 
the precinct and district level if there are grievances, it is 
the electoral commission at that level, so the precinct or the 
district level, to take a look at those grievances. And then if 
there are grievances that merit judicial review, they are 
referred to an administrative chamber of the judiciary. And 
that is where we saw, or I should say where local observers and 
monitors saw the vast dismissal of their electoral grievances 
and complaints.
    Senator Johnson. So is the judiciary replaced with every 
administration? I mean how political is the judiciary there?
    Ms. McDonald. Sorry. I did not hear the first part of the 
question.
    Senator Johnson. So is the judiciary replaced, especially 
at the administrative level? Is it replaced with every new 
government or is this an ongoing judicial body?
    Ms. McDonald. Yeah. So the reference to the judicial reform 
and the courts that I think you made in your statement, sir, I 
would very much associate with myself with that many of these 
issues are the issues that they have been facing for many years 
related to influence within the courts. And I think, so the 
combination of both having an electoral commission structure 
and formula for composition of those district and precinct 
level decision makers coupled with a judiciary that is widely 
perceived as not independent and not impartial, I think some of 
the key priority issues or concerns that we have seen in the 
judiciary are, for example, the High Council of Judges, which 
exercises undue influence over other judges using the 
disciplinary system, using the promotion system, et cetera. It 
is actually pejoratively referred to as the clan.
    Senator Johnson. But my question is how often does the 
judiciary turn over? Does it turn over with every 
administration or are the courts continuing bodies?
    Ms. McDonald. I do not know the answer to that. We can get 
that for you. My understanding is that the appointments of the 
judges and the process for that is part of the judicial reform 
agenda that has been put forward by OSCE, by ODHIR because of 
this issue of being able to appoint judges. And I think the 
terms are different for the different bodies, Supreme Court, 
Constitutional Court, et cetera. But I think that is all part 
of the negotiation and the discussion about judicial reform and 
trying to bring a modicum of impartiality to that body.
    [The requested information referred to above follows:]

    The terms are different for different bodies. Georgian law states 
that all judges in the lower courts, appellate courts, and the Supreme 
Court will be appointed to lifetime appointments. That law applies to 
all incoming judges and judges who have been appointed since 2016. 
However, several judges are still in the old system, which is 
appointment for 10-year terms. When their terms expire, they can 
reapply for lifetime appointments. The Constitutional Court judges 
remain appointed for 10-year terms.

    Senator Johnson. So then the third is really the non-
independent, the partisan election commission. And apparently 
there are multiple levels of this. The OCSE made a number of 
different recommendations. I was asking my staff whether the 
U.S. made recommendations. We apparently did not, but we are 
basically signing on to the OSCE. Is that correct?
    Ms. McDonald. That is correct. We have urged parties to 
adopt in full the OSCE/ODHIR recommendations. I would note that 
last summer with the constitutional and electoral reforms some 
of the recommendations were brought in, but not all. And this 
has been part of the problem, I think, that we have seen not 
just on electoral reform, but also on judicial reform. We have 
seen this kind of drips and drabs approach, right. And there 
needs to be this comprehensive buy-in in spirit and letter to 
having an independent and impartial judiciary and the electoral 
reform.
    Senator Johnson. So we have voter oppression and 
intimidation, which is hard to nail down, hard to prove, hard 
to adjudicate. Then you have a judicial process, which is not 
perceived as impartial to adjudicate those claims, so they do 
not get adjudicated. So you just have the hard feelings and 
people do not believe the results are legitimate. And then the 
third one is the election commission itself and that structure. 
And here is the OSCE recommendation, again that the U.S. 
Government would back, correct?
    It says the composition of the election administration 
could be reconsidered to increase its impartiality and 
independence. Isn't that key? Don't you need an election 
commission that is completely impartial, nonpartisan or at 
least--there is partisanship everywhere, but at least you have 
a balance between one party and the other party so that nobody 
feels that they have an advantage one way or the other. Is that 
an accurate statement?
    Ms. McDonald. That is correct.
    Senator Johnson. I had one other question here. Yeah. I 
will yield back my time. Thanks.
    Senator Shaheen. Senator Murphy.
    Senator Murphy. Thank you very much, Madam Chair. Thank you 
both for appearing before us and for the good work that you are 
doing here. I just had two sort of more general topics of 
conversation regarding U.S. policy in Georgia.
    In the wake of 2008, the United States made a sizable 
commitment to Georgia in the neighborhood of a billion dollars. 
They were part of the MCC program. At that point, there were a 
number of other programs that we had in place. And you could 
make a pretty good argument that we got substantial return on 
our investment. Georgia in those years, made a lot of progress. 
Nowhere near perfect, but that close U.S. partnership really 
mattered. And it was not just with the Government. It was a 
partnership with civil society, right, trying to midwife civil 
society organizations on the ground to be able to hold their 
Government accountable, something that is often missing in 
early stage democracies.
    So maybe put this to you, Mr. Kent, but happy to hear from 
both. What lessons can we learn from our experience in Georgia, 
having made a substantial commitment post 2008 and what are the 
ways in which U.S. assistance, if it is available and provided 
on the right terms can make a difference to try to move beyond 
the current crisis?
    Mr. Kent. Thank you very much, Senator. You are right that 
we have assisted Georgia immensely, billions of dollars since 
independence, with the earmark currently at $132 million. That 
is roughly $50 million a year in various forms of security 
assistance, $40 million on economic development, and roughly 
$35 million for democracy and governance building. And I think 
our efforts have been focused on helping Georgia succeed as a 
secure country that can contribute to collective security, to 
succeed economically, to reduce dependence on Russia and do so 
in a way that drives growth and prosperity at home rather than 
having Georgians seek employment abroad. And then obviously 
strengthening the institutions of governance, whether it is the 
court system, whether it is being responsive to the needs of 
the citizens.
    And so I think a lot has been done to help remake Georgia 
even physically. The MCC's focus, the first round of the MCC, 
Millennium Challenge Corporation Compact was on infrastructure, 
and so there is very good infrastructure now in Georgia that 
did not exist previously. The second round was on education. 
Again, Georgians understand that they need to improve the 
student centric education so young Georgians can succeed in the 
21st century. But I think in terms of the embrace of the 
democratic norms in the political culture, I think that is an 
area where there is still work to be done.
    Senator Murphy. What is the sort of status of civil society 
groups? And you say work to be done. How much opportunity 
exists to do works in the civil sector? I think a lot about the 
Global Engagement Center. We have been successful in growing 
the capacity to support organizations that are countering 
propaganda that are frankly just telling objective stories not 
influenced or paid for by foreign actors. What have we learned 
about our ability to try to open up that space in Georgia with 
U.S. aid programming?
    Mr. Kent. Well, I will say that Georgian civil society is 
vibrant. They are articulate. And I think whether there are 
specific areas like media freedoms or corruption in 
transparency, while we have partnered with Georgian civil 
society, there are excellent dedicated Georgians who are 
working to build a more successful society and do not see the 
path to success only in government service. And I think that is 
how it should be. And I will let Kara talk about some of the 
programs that DRL works on, but I think whether it is our 
public diplomacy section which runs a small grants program or 
works with independent medias versus our USAID colleagues--we 
have a lot of excellent partners who are dedicated to laterally 
building out a Georgian society that has a voice and has a role 
to play in the country's success.
    Ms. McDonald. Thank you for the question. You are correct. 
The civil society, the vibrancy of civil society is such a 
fundamental piece. It's a hallmark of democracy. And so we have 
invested with generous Congressional support tremendously in 
civil society and I would also say in free media. And I 
mentioned the media in my testimony in particular because it is 
an area where we see the best opportunity to help Georgia 
counter a lot of the disinformation and misinformation and 
propaganda that has been working to destabilize its society.
    USAID has quite a robust what they call a democracy 
governance portfolio. It is about $33.5 million of the $132 
million Eur-earmark. Of that, $8 million specifically goes to 
civil society. We in DRL also have just over $1 million. It is 
in HRDF, which is Human Rights Defenders Fund and FFF, which is 
Fundamental Freedoms Fund. Just over $1 million also supporting 
various programs in terms of civil society, helping build some 
of this public confidence, transparency, accountability between 
constituents and their leaders.
    The one thing I would mention on the media side, we also 
fund out of DRL six different regional programs of which 
Georgia is a part that works specifically to counter malign 
influence and propaganda. That program is oriented at 
bolstering truthful narratives, increasing access of 
independent media voices, proliferating those independent media 
voices, allowing them space and helping them gain space to 
operate, being able to understand and work within a 
disinformation environment, and protection of their information 
technology. So it is quite a robust program and I must say it 
is one that we are very committed to given the threats.
    Senator Murphy. You know, there is so many similarities 
between what has happened in Georgia and Ukraine. And what 
Russia is really betting on is that they can destabilize the 
politics and economics of both of these nations so that they 
eventually give up and sort of make the choice without a full 
invasion to put themselves back under the arm of the Kremlin. 
And so, it is always wild to me that we are talking about 
spending north of $100 million in Georgia this year and yet we 
will without debate approve another $4 billion in European 
Reassurance Initiative that is dedicated to military protection 
along NATO's eastern flank.
    And not that that is not important, but it just seems to me 
to be such a misallocation of resources that we are spending 
multiple billions of dollars on the military reinforcement of 
Europe when the true vulnerability of countries like Europe or 
Ukraine really lie in the ability of the Russians to probe at 
the strength of the political and economic infrastructure. And 
so I look forward as we get ready for the next budget to try to 
make the case for how efficacious these funding programs are 
for economic development, education, media independence, civil 
society groups, and how that probably is at least as good an 
investment as continuing to send rotational U.S. forces into 
the areas around Russia's periphery.
    Thank you, Madam Chair.
    Senator Shaheen. Thank you, Senator Murphy.
    And I understand that we have Senator Van Hollen ready to 
appear virtually.
    Senator Van Hollen. Yes. Hi, Madam Chair. Thank you very 
much for holding this hearing. And I want to thank both our 
witnesses for their public service.
    There has obviously been a lot of discussion about the 
current situation on the ground in Georgia. And my question is 
how do we break this deadlock? And I think that the status quo 
right now is being easily exploited by Russia. So should the 
ruling party move first and release Melia or should the 
opposition drop its demand for snap elections? Should this be 
something that happens simultaneously? And really most 
importantly, what role can the United States play in trying to 
resolve this deadlock that I think is, again, is only serving 
the interests of Russia and those who do not support a 
democratic trajectory in Georgia?
    Mr. Kent. Senator, thank you for your question. I believe 
what the U.S. can do is message, including with this hearing 
and your questions and your signals that you have sent in your 
statement, to our friends across the Georgia political spectrum 
that they need to get back into the room together and come to 
an agreement. The U.S. is actually in the room. Our ambassador 
is there, the EU mediator Danielson will be back there later 
this week, and we are trying our best to bring the Georgians 
together.
    I will be honest that both sides look to us to deliver the 
other side. And in the end, while we can cajole and push, they 
have to own this process because they are the ones who have to 
commit and then they are the ones who have to deliver. And so I 
think in terms of the details, you have hit the points of 
contention between the sides. I think there is more room for 
agreement on the reform path forward, on electoral reform that 
my colleague detailed, the judicial reform that Kara also 
mentioned, and then again how they might better share 
assignments in the parliament. But the two areas you identified 
are the two sticking points, and the two sides need to come 
together and reach agreement.
    Senator Van Hollen. I appreciate that. While I have got you 
here, it is not directly related to this current impasse, but 
the three plus three regional platform proposed by Russia, 
Turkey, and Iran that you referenced in your testimony, can you 
talk a little bit about what you see as their goals and how 
that could impact Georgia?
    Mr. Kent. Thank you, Senator, for that question. For the 
past quarter century, the framework for approaching the real 
challenge in the South Caucuses on security and particularly 
the situation Nagorno-Karabakh has been led by the Organization 
for Security and Cooperation in Europe--a different element 
from the Office of Democracy and Human Rights, ODIHR, that 
helps run elections. And they are intimately involved in both 
what's called Minsk Group process for Nagorno-Karabakh as well 
as the Geneva International discussions which address Abkhazia 
and South Ossetia.
    And so this is the appropriate framework. All the countries 
that are involved are members and have shared commitment to 
values and processes. And the three plus three proposal is 
really a great departure from that values-based all stakeholder 
process. It would be exclusive. It would focus on regional 
infrastructure. And the Georgians are concerned because some of 
the designs that the Russians have put on the table would 
actually circumvent Georgia with rail and road infrastructure 
in the same way that the Nord Stream 2 and Turk Stream 
pipelines circumvent Ukraine for provision of gas to Western 
Europe. And so that is the threat that Georgia sees to this 
platform. And they also very rightly do not want to go to the 
negotiating table with a country that occupies 20 percent of 
their territory and refuses to live up to its own commitments 
made to French President Sarkozy in the aftermath of the 2008 
war.
    So I think that is why we believe that the best 
arrangements for engaging on regional security are with the 
organization that was set up to deal with that, and that's the 
Organization for Security and Cooperation in Europe.
    Senator Van Hollen. I appreciate that. Thank you very much, 
Madam Chair. Thank you. Thank you both for your testimony.
    Senator Shaheen. Thank you very much, Senator Van Hollen.
    Senator Johnson, do you have any further questions?
    Senator Johnson. I do remember the last one. First, I do 
want to talk a little bit about exactly how Russia has been 
behaving. I know I met with the Georgian delegation I think 
before COVID and they were complaining about Russia keeps 
advancing their lines and just creeping forward. What has been 
the current situation over the last year or two?
    Mr. Kent. Unfortunately, Senator, the Russians continue to 
push the envelope. And they might try to claim that they are 
South Ossetians or Abkhazians, but it is pretty clear when you 
go to the line, contact line. And if you have not done, that I 
am sure----
    Senator Johnson. I have.
    Mr. Kent. You have. When you pull up those binoculars, 
those are Russians staring back at you with binoculars, so it 
is pretty clear who is there. And over the last 2 years, there 
have been several instances where they have not just been 
putting up razor wire and fencing on the generally agreed upon 
border demarcation between what are provinces, Ossetia and 
South Abkhazia, but also actually moving the boundary forward 
or staking a position. And so the Georgians have every right to 
complain because, again, Russia, after the 2008 war committed, 
first of all, for complete humanitarian access, which they do 
not provide. They also committed to pull their troops back to 
the positions that existed prior to the 2008 war. They have not 
done that.
    There are a half dozen Georgians who are detained, 
essentially imprisoned, and so that is why we do have this 
process, the Geneva International Discussions. We are a party 
to those conversations. The next round will happen later this 
week. So I think in terms of the actual aggression, it 
continues. It is not a shooting war, but it is certainly a 
situation of intimidation.
    And the attacks, the cyberattacks also continue. The 
landmark one was in 2019, and we attributed it to the GRU. 
About 15,000 businesses and websites were affected. They were 
attacking Georgia with cyberattacks as early as 2006 and they 
continue to do so.
    So the Russian attacks are in cyber. There are economic 
pressures. There is the disinformation war. And then there is 
the occupation of 20 percent of Georgian territory.
    Senator Johnson. Which just underscores Georgia's main 
problem right now is Russia. And if they can agree on how to 
resolve their political differences, they would be in much 
better shape. Can you speak just a little bit about the 
multiparty system there? There are two main parties. How 
independent? How aligned are the various smaller parties? 
Either one, whoever.
    Mr. Kent. Yeah. So, Senator, there are, as you said, two 
main parties. I think they are the ones that people who have 
watched Georgia over the last, if you will, 20 years. The 
current ruling party which has been in office since Senator 
Shaheen and Risch saw their election in 2012 replaced the 
government of what is known as UNM, which was in charge between 
2003 and 2012. But there are a number of other smaller parties 
which are looking to emerge and offer Georgians a choice.
    So it is unlike in the United States where you have two 
main parties and it has been that way since any of us can 
remember, in Georgia they are certainly looking to move towards 
a more multipolar system and they have lowered the threshold. 
This last election, you only needed 1 percent of the vote in a 
proportional representation system. And that is why I believe 
there were nine parties that were elected. And so I think 
particularly with a proportional representation system being 
the main way of electing MPs going forward, it depends on what 
the bottom line threshold is, but you do have other voices that 
are looking to emerge.
    Senator Johnson. So they are actually encouraging more 
parties as opposed to consolidating under two.
    Mr. Kent. Correct.
    Senator Johnson. Okay. That is interesting. Again, Madam 
Chair, I really do applaud you for holding this hearing. 
Senator Van Hollen talked about what the U.S. can do. I think 
we undervalue sometimes what the U.S. Senate can do. And I 
think, again, as Mr. Kent has and our witnesses have talked 
about, holding this hearing is important. It sends an important 
signal. I think also potentially a Senate resolution where we 
can encourage sense of the Senate, encourage the parties within 
Georgia to come together, settle these disputes, recognize it 
is not easy, but it is up to them. Nobody can pressure them. I 
thought it was interesting the comment that both parties are 
looking for the U.S. to impose our will on the other. It sounds 
like Serbia and Kosovo. We have heard this time and time 
again--it is up to those parties. So I would love to work with 
you, if we could develop a Senate resolution, pass it through 
this committee, and then pass it through the Senate. I think it 
could also send an important signal and might be helpful.
    Senator Shaheen. I agree. I think that is a really good 
suggestion and, as Ms. McDonald said, we cannot want it more 
than they do. It is really important for the Georgians 
themselves to want to figure out how to end this impasse.
    I just want to follow up on a couple of lines of 
questioning that you and others have started. I want to go 
back, Mr. Kent, to your opening comments where you talked about 
how the Nagorno-Karabakh conflict has given Russia an 
opportunity to have troops on the ground, another opportunity 
to have troops on the ground in the neighborhood. Can you speak 
to what kind of message that sends to Georgia and to those 
Georgians who are in Abkhazia and South Ossetia who would like 
to be free of Russian influence to have the additional Russian 
troops in the neighborhood?
    Mr. Kent. Thank you, Chairwoman. Most of the ethnic 
Georgians who traditionally lived in Abkhazia and South Ossetia 
have been ethnically cleansed. There are hundreds of thousands 
of IDPs, most of them dating back several decades. Another 
25,000 were pushed out of South Ossetia as part of the 2008 
war. So Russian troops, as with Senator Johnson, maybe you have 
seen through the binoculars, are there on Georgian territory.
    The Russians also man several bases in Armenia and help 
with the border guard services along the border with Turkey, in 
particular. Russia acts as Armenia's security guarantor, vis-a-
vis Turkey. And then the Russian peacekeepers are now in 
Nagorno-Karabakh for the first time since the breakup of the 
Soviet Union.
    And so I think in part this is the challenge of being a 
country like Georgia. I am sure Foreign Minister Zalkaliani, 
when he has come through, shares his vision of Georgia, an 
ancient nation surrounded by three empires: the Russian, the 
Ottoman, and the Persian. And sometimes the names change, but 
those dynamics for a small country like Georgia remain.
    And so I think particularly when you have the legacy 
states, Russia, Turkey, and Iran, of those three empires 
between which Georgia has sought to survive for a millennia, 
that they feel that pressure, and that is why they turn to us 
as what they see their main strategic partner. And it is 
precisely as Senator Johnson said. When that is your threat, 
you should not be creating a domestic political crisis. You 
need to join ranks, sort out the domestic rules of the game, 
and then focus on your real challenges, which are the changed 
geostrategic reality of the South Caucuses and straightening 
out your economy to be competitive and particularly in a post-
COVID environment.
    Senator Shaheen. So when we were there in 2012 Ivanishvili 
was considered the father of Georgia Dream, funded Georgia 
Dream, and was also criticized for being too close to Russia 
and taking orders from Russia basically. Now, he denied that, 
and as I understand, has continued to deny that and Georgia 
Dream continues to deny that, but to what extent do we think 
there is still some truth in that and how much are we concerned 
that Georgia Dream may not feel free to make its own decisions 
about trying to resolve the current crisis, but is continuing 
the impasse because it benefits Russia?
    Mr. Kent. Madam Chairwoman, I think it is safe to assess 
that the Georgia Dream Government, which has been in office 
starting with Bidzina Ivanishvili as Prime Minister and then as 
party chair and now stepping down formally from that role, has 
retained Georgia's commitment to its path of integration of 
western institutions. It is the Georgia Dream Government that 
has announced that it will apply for EU membership in 2024. 
They continue to want to join NATO. And so I think it is very 
clear that not only is that the overwhelming choice of at least 
three quarters of Georgians, it has consistently been the path 
of choice of the Georgia Dream governments that were started by 
and continue to be led by, whether formally as a chair or 
informally as the founder, Bidzina Ivanishvili.
    So I think when we hear Georgians, including the new Prime 
Minister who was the defense minister and with whom we worked 
closely, that commitment to Georgia's path and their strategic 
goal is clear. I think this hearing has focused on whether the 
commitment is to the values that will lead them to that path, 
because NATO is not just a military alliance. It is a community 
of countries that share values. And I think this really is the 
ultimate test in why these developments that you have called 
the hearing to discuss are so important for Georgia's future.
    Senator Shaheen. Well, thank you. And certainly as we look 
at their positioning within Eurasia between three empires, 
historic empires, having support from the west in that 
integration with the European community and the west is very 
important in providing the support that will help them continue 
towards democratization and building of their institutions.
    Can I just ask a final question? Senator Johnson suggested 
a resolution which has been one way that the Senate has made 
clear how we view certain issues. How helpful do either of you 
think that will be with the current crisis and is there 
anything else as you think about what this committee and what 
the Senate might do to make clear the message that we have that 
all parties should come to the table. They should negotiate an 
end to this crisis. And they should move on in a way that 
continues to be a strong partner and ally of the United States.
    Ms. McDonald. Thank you, George. Thank you for the question 
and I very much wanted to add a couple of thoughts.
    Senator Shaheen. Good.
    Ms. McDonald. I think modeling of the bipartisan leadership 
that you are showing here today is so important for Georgian 
leadership to see. That is really the model that we have been 
pushing for, that is coming together, a culture of power 
sharing, and a culture of pluralism.
    And I wanted to make a quick comment about Ranking Member 
Johnson's question regarding the landscape of the political 
parties. What I would note on this is that a lot of the 
assistance that we have been providing is focused on building 
platform based parties, not personality based parties, with the 
notion that that is how you coalition build. You get around 
issues. You get around issues that your constituents care 
about. And that is how you build coalitions within a multiparty 
system that we have seen in Georgia.
    But thank you also for the question about how Congress can 
help. I wanted to make one other quick comment if you will 
permit me, Madam Chairwoman, please. And that is as we focus on 
the importance of compromise in this dialogue and getting 
through this impasse, we feel it is very important also to 
continue to press and urge for these electoral and judicial 
reforms and the buy-in of these parties, both in spirit and 
letter, right. We have found this process of reform to be a 
very, very long one in Georgia, particularly as regards to 
judicial sector. And I think we do not want to lose sight of 
that longer, wider, structural set of issues because my fear is 
that we get past an impasse and then you come back around to 
these key issues. And the protests start again and then again 
it goes into playing into Russian hands. So it really is those 
wider issues. And frankly, the OSCE/IDIHR report is an 
excellent roadmap.
    Senator Shaheen. Good. Well, thank you both very much for 
your testimony this afternoon and for your continuing good work 
to help resolve, support Georgians in resolving their own 
impasse, and we stand ready to help in any way we can. And we 
will go forward with the resolution that Senator Johnson 
suggests.
    Thank you. This hearing has now ended.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
